     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
December 28, 2010                                                         Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
Report Number: A-02-09-01031

Mr. Ricardo Rivera
President
Cooperativa de Seguros de Vida de Puerto Rico
400 Avenida Américo Miranda
Esq. Expreso Las Américas
Rio Piedras, PR 00926

Dear Mr. Rivera:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of Cooperativa de Seguros de Vida de Puerto Rico’s
Final Administrative Cost Proposal for Fiscal Year 2008. We will forward a copy of this report
to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Glenn H. Richter, Audit Manager, at (518) 437-9390, extension 227, or through email at
Glenn.Richter@oig.hhs.gov. Please refer to report number A-02-09-01031 in all
correspondence.

                                             Sincerely,



                                             /Richard Schlitt/ for
                                             /James Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Ricardo Rivera


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management (OFM)
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  AUDIT OF COOPERATIVA DE
 SEGUROS DE VIDA DE PUERTO
 RICO’S FINAL ADMINISTRATIVE
     COST PROPOSAL FOR
       FISCAL YEAR 2008




                      Daniel R. Levinson
                       Inspector General

                        December 2010
                        A-02-09-01031
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Medicare Program. The Centers for
Medicare and Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries that process and pay Medicare claims. Contracts between
CMS and the Medicare contractors define the functions to be performed and provide for the
reimbursement of allowable administrative costs incurred in the processing of Medicare claims.

CMS contracts provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and the Medicare contract.
Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (cost proposal), which reports the Medicare administrative costs incurred during
the year. The cost proposal and supporting data provide the basis for the CMS contracting
officer and contractor to negotiate a final settlement of allowable administrative costs.

For FY 2008, CMS contracted with Cooperativa de Seguros de Vida de Puerto Rico (COSVI) to
serve as the Part A fiscal intermediary for the Commonwealth of Puerto Rico and the United
States Virgin Islands. COSVI reported Medicare Part A administrative costs totaling $2,928,106
in its cost proposal for FY 2008.

OBJECTIVES

Our objectives were to determine whether (1) the COSVI cost proposal fairly presented program
administrative costs and (2) the costs were reasonable, allowable, and allocable in accordance
with the FAR and the Medicare contract.

SUMMARY OF FINDINGS

COSVI reported expenditures in its cost proposal that substantially complied with the FAR and
the Medicare contract. However, COSVI overstated its cost proposal by $13,246. Specifically,
COSVI reported overstated building improvement costs ($8,869), and unallocable entertainment
($4,227) and travel costs ($150) to the Medicare program.

RECOMMENDATION

We recommend that COSVI decrease its cost proposal for FY 2008 by $13,246 to reflect the
unallowable administrative costs.




                                               i
COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, COSVI partially concurred with our recommendation to
decrease its cost proposal by $13,246. COSVI indicated that it agreed to adjust its cost proposal
for overstated building improvement costs ($8,869) and unallocable travel costs ($150).
However, COSVI indicated that it did not agree to adjust its cost proposal for entertainment costs
($4,227) because the costs related to employee morale and shareholders meetings. COSVI’s
comments appear in their entirety as Appendix D.

After reviewing COSVI’s comments, we maintain that the entertainment costs are unallocable
and that COSVI should decrease its cost proposal by $13,246 to reflect all of the unallowable
administrative costs.




                                                ii
                                                    TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY ...................................................1
               Objectives ......................................................................................................1
               Scope ..............................................................................................................1
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          OVERSTATED COSTS ...........................................................................................3
            Building Improvements .......................................................................................3

          UNALLOCABLE COSTS ........................................................................................3
            Entertainment .......................................................................................................3
            Travel ...................................................................................................................3

          RECOMMENDATION .............................................................................................4

          COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO
          COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ...............4

APPENDIXES

          A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST PROPOSAL BY
              COST CLASSIFICATION

          B: OFFICE OF INSPECTOR GENERAL RECOMMENDED COST
               ADJUSTMENTS

          C: COMPARISON OF ADMINISTRATIVE COSTS REPORTED TO BUDGET
               AUTHORIZATION

          D: COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO COMMENTS




                                                                      iii
                                      INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Medicare Program. The Centers for
Medicare and Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries that process and pay Medicare claims. Contracts between
CMS and the Medicare contractors define the functions to be performed and provide for the
reimbursement of allowable administrative costs incurred in the processing of Medicare claims.

CMS contracts provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and the Medicare contract.
Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (cost proposal), which reports the Medicare administrative costs incurred during
the year. The cost proposal and supporting data provide the basis for the CMS contracting
officer and contractor to negotiate a final settlement of allowable administrative costs.

For FY 2008, CMS contracted with Cooperativa de Seguros de Vida de Puerto Rico (COSVI) to
serve as the Part A fiscal intermediary for the Commonwealth of Puerto Rico and the United
States Virgin Islands. COSVI reported Medicare Part A administrative costs totaling $2,928,106
in its cost proposal for FY 2008.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) the COSVI cost proposal fairly presented program
administrative costs and (2) the costs were reasonable, allowable, and allocable in accordance
with the FAR and the Medicare contract.

Scope

Our review covered the period October 1, 2007, through September 30, 2008 (FY 2008). For
this period, COSVI reported Medicare Part A administrative costs totaling $2,928,106. This
total included pension costs of $173,772 that we excluded from this review because they will be
the subject of a separate audit. COSVI did not report any forward-funding costs in its cost
proposal for this period. We reviewed only those internal controls relevant to our audit
objectives.

We conducted our fieldwork at COSVI’s offices in San Juan, Puerto Rico, from August 2009
through February 2010.




                                               1
Methodology

To accomplish our objectives, we

   •   reviewed applicable Medicare laws, regulations, and guidelines;

   •   reviewed the applicable sections of the FAR and COSVI’s contract with CMS;

   •   reviewed COSVI’s independent auditor’s reports and letters related to internal controls
       for COSVI for calendar years 2007 and 2008;

   •   reconciled expenses on the cost proposal and cost classification report to COSVI’s
       accounting records;

   •   tested costs for reasonableness, allowability, and allocability;

   •   selected and reviewed a judgmental sample of journal entries, invoices, expense vouchers
       and reports, contracts and agreements, and additional supporting documentation;

   •   interviewed COSVI officials regarding their costs accumulation processes for cost
       proposals and cost allocation systems;

   •   reviewed payroll journals, corporate bonus plans, and personnel records; and

   •   selected a judgmental sample of 15 individual employees and verified that the amount
       paid to each employee was in accordance with the employee’s pay rate, the employee’s
       salary was charged to the correct cost center, and the number of hours paid to the
       employee agreed with the employee’s earning statements.

In addition, for each of the five highest paid COSVI executives who had salaries allocated to
Medicare, we:

   •   reviewed total compensation payout data and supporting documentation;

   •   compared executive compensation costs to benchmark amounts published in the Federal
       Register; and

   •   applied the Medicare allocation percentage to each executive’s total compensation, up to
       the benchmark amount, to determine the allowable executive compensation amount.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



                                                 2
                           FINDINGS AND RECOMMENDATION

COSVI reported expenditures in its cost proposal that substantially complied with the FAR and
the Medicare contract. However, COSVI overstated its cost proposal by $13,246. Specifically,
COSVI reported overstated building improvement costs ($8,869), and unallocable entertainment
($4,227) and travel costs ($150) to the Medicare program.

OVERSTATED COSTS

Building Improvements

Pursuant to Appendix B, section II(B) of the Medicare contract, costs should be allocated only
once to prevent duplication of charges. Further, the contract clause states that adherence to this
cost accounting concept is necessary to guard against overcharging cost objectives and to prevent
double counting.

COSVI properly categorized building improvement costs incurred to install and test fiber optic
cable as a capitalized expense and reported related depreciation costs in its cost proposal.
However, contrary to the contract clause, COSVI also reported a portion of these building
improvement costs as an expense in its cost proposal. As a result, COSVI overstated its
expenses by $8,869.

UNALLOCABLE COSTS

Entertainment

Pursuant to section 31.205-14 of the FAR, “… costs of amusement, diversions, social activities,
and any directly associated costs such as tickets to shows or sports events, meals, lodging,
rentals, transportation, and gratuities are unallowable.” Further, pursuant to FAR 31.201-4, “a
cost is allocable if it is assignable or chargeable to one or more cost objectives on the basis of
relative benefits received or other equitable relationship.”

COSVI improperly reported unallocable entertainment costs totaling $4,227 in its cost proposal.
Specifically, COSVI reported costs for food and beverages served after the company’s annual
meeting ($3,179) as well as costs for renting a facility and hiring a band to perform at the
company’s Christmas party ($1,048).

Travel

Pursuant to section 31.201-4 of the FAR, “a cost is allocable if it is assignable or chargeable to
one or more cost objectives on the basis of relative benefits received or other equitable
relationship.”




                                                 3
COSVI improperly reported unallocable travel costs in its cost proposal totaling $150.
Specifically, COSVI claimed airfare costs incurred by one employee for personal travel after the
conclusion of an official business trip. 1

RECOMMENDATION

We recommend that COSVI decrease its cost proposal for FY 2008 by $13,246 to reflect the
unallowable administrative costs.

COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, COSVI partially concurred with our recommendation to
decrease its cost proposal by $13,246. COSVI indicated that it agreed to adjust its cost proposal
for overstated building improvement costs ($8,869) and unallocable travel costs ($150).
However, COSVI indicated that it did not agree to adjust its cost proposal for entertainment costs
($4,227) because the costs related to employee morale and shareholders meetings. COSVI’s
comments appear in their entirety as Appendix D.

After reviewing COSVI’s comments, we maintain that the entertainment costs are unallocable
and that COSVI should decrease its cost proposal by $13,246 to reflect all of the unallowable
administrative costs.




1
    The airfare costs related to a trip segment added to the employee’s flight home from the business trip.


                                                             4
APPENDIXES
      APPENDIX A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST
                  PROPOSAL BY COST CLASSIFICATION


                          Cost Category                       Total Costs
                                                               Claimed
 Salaries/Wages                                                  $ 1,222,510
 Fringe Benefits                                                      365,326
 Facilities or Occupancy                                              278,036
 Subcontractors                                                       168,800
 Outside Professional Services                                        552,018
 Telephone and Telegraph                                               52,872
 Postage and Express                                                    6,346
 Furniture and Equipment                                              129,865
 Materials and Supplies                                                25,847
 Travel                                                                42,669
 Return on Investment                                                  18,794
 Miscellaneous                                                         92,678
 Credits                                                             (27,655)
 Total Costs Reported on Final Administrative Cost Proposal      $ 2,928,106
 OIG Recommended Adjustments*                                        (13,246)
 Total Adjusted Costs                                            $ 2,914,860

* See Appendix B
    APPENDIX B: OFFICE OF INSPECTOR GENERAL
        RECOMMENDED COST ADJUSTMENTS




              Finding Category          Total Part A
                                        Adjustments
Overstated Building Improvement Costs         $ 8,869
Unallocable Entertainment Costs                 4,227
Unallocable Travel Costs                         150
Total OIG Recommended Adjustments            $ 13,246
                APPENDIX C: COMPARISON OF ADMINISTRATIVE COSTS
                      REPORTED TO BUDGET AUTHORIZATION



                                                                                     Variance
                                           Budget            Administrative          Favorable
            Operation                   Authorization        Costs Reported        (Unfavorable)

Program Management
Bills/Claims Payment                          $   571,500         $   517,518             $ 53,982
Appeals/Reviews                                   155,600             156,717                (1,117)
Beneficiary Inquiries                              34,100              19,306                 14,794
Productivity Investment                            43,300              22,554                 20,746
Reimbursement                                     222,800             216,953                  5,847
Provider Enrollment                                68,000              74,162                (6,162)
Provider Inquiries                                228,200             190,696                 37,504
Provider Outreach & Education                      75,300              77,984                (2,684)
Credits                                          (36,200)            (27,655)                (8,545)
        Subtotal                              $ 1,362,600         $ 1,248,235             $ 114,365
Medicare Integrity Program
Medical Review                                $   390,000         $    389,477            $      523
MSP- Prepayment                                    54,600               51,838                 2,762
Benefits Integrity                                 35,000               36,236               (1,236)
MIP Provider Outreach and Education               175,000              170,424                 4,576
Audit                                           1,019,700            1,022,211               (2,511)
MSP Post payment                                    9,800                9,685                   115
        Subtotal                              $ 1,684,100          $ 1,679,871            $ 4,229
Totals                                        $ 3,046,700          $ 2,928,106            $ 118,594


Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No. 01) and
Notice of Budget Approval (Supplement No. 09).
APPENDIX D: COOPERATIVA DE SEGUROS DE VIDA
         DE PUERTO RICO COMMENTS
